**THIS IS A CAPITAL CASE**
No.
IN THE SUPREME COURT OF THE UNITED STATES
CARMAN DECK, Petitioner
v.
PAUL BLAIR et al., Respondents
On Petition for Writ of Certiorari to the U.S. Court of Appeals, Eighth
Circuit
APPLICATION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS
COMES NOW the petitioner, by and through counsel, and moves
the Court for its order permitting him to file the attached petition for a
writ of habeas corpus in forma pauperis. Petitioner has proceeded in
forma pauperis at all stages of this proceeding in the courts of the
United States, and is represented by the undersigned counsel pursuant
to an appointment under the Criminal Justice Act.

1

Respectfully submitted,
/s/ Elizabeth Unger Carlyle
Elizabeth Unger Carlyle*
Carlyle Parish LLC 6320
Brookside Plaza #516
Kansas City, Missouri 64113
*Counsel of Record
Kevin Louis Schriener
Law & Schriener, LLC
141 North Meramec Avenue, Suite 314
Clayton, Missouri 63105
ATTORNEYS FOR PETITIONER

2

